PRICING INFORMATION FOR THE AOPA WORLD MASTERCARD® CREDIT CARD
Interest Rates and Interest Charges
Annual Percentage Rate
to
based on your creditworthiness
(APR) for Purchases
when you open your Account.
After that, your APR will vary with the market based on the Prime Rate.
APR for Balance Transfers
Prime Rate plus 6.99% to 16.99% based on your creditworthiness when you open your
Account.
After that, your APR will vary with the market based on the Prime Rate.
APR for Cash Advances
Prime Rate plus 21.99% for Non-Overdraft Cash Advances.
(Non-Overdraft & Overdraft)
Prime Rate plus 21.99% for Overdraft Cash Advances.
These APRs will vary with the market based on the Prime Rate.
Penalty APR and When it
Prime Rate plus 23.99%
Applies
This APR will vary with the market based on the Prime Rate.
This APR may be applied to your Account if you fail to make the required minimum
monthly payment within 60 days of the respective payment due date.

Prime Rate plus 6.99%

16.99%

Minimum Interest Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau

How Long Will the Penalty APR Apply?: If your APRs are increased for this
reason, the Penalty APR will apply until you make six consecutive minimum
payments when due.
Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on Purchases if you pay the entire balance by the due date each
month. We will begin charging interest on Cash Advances and Balance Transfers, on
the transaction date.
If you are charged interest, the charge will be no less than $2.50.
To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Transaction Fees
- Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

Paying Interest

- Non-Overdraft Cash
Advance
- Overdraft Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

- Foreign Transaction

1% of each transaction in U.S. Dollars. 2% of each transaction made in currencies other
than U.S. Dollars.

Penalty Fees
- Late Payment

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

Up to $40

How We Will Calculate Your Balance: We use a method called “Daily Balance” (including new Purchases and Fees).
See the account agreement for more details.
Standard APR: Your standard APRs will be disclosed in your Account Opening Disclosure with your new credit card
approximately 7-10 business days after Account approval.
Prime Rate: The Prime Rate used to determine the APR on your Account is the U.S. Prime Rate published in The Wall
Street Journal in its column called “Money Rates” on the last business day of each month. Although each Daily Periodic
Rate is determined by an index published prior to the first day of each calendar month, the respective Daily Periodic Rate
will only become effective and charged as of the first day of the monthly billing period following the respective calendar
month in which the index is so published. No representation is made that the U.S. Prime Rate is the lowest, the best or
the favored rate of interest. If for any reason The Wall Street Journal no longer publishes the “Money Rates” column, then
we will choose a new index based on comparable information. An increase in the Prime Rate will cause your interest rate
to increase and may cause your minimum monthly payment to increase.
Daily Periodic Rate: The Daily Periodic Rate for all APRs equals the APR divided by 365.

© 2020 Commerce Bancshares, Inc.

